                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

     Case Number: A-09030013
                                                                               I         Page 1 of 1



          We received an allegation of Scholarly Misconduct from the complainant.' The complainant
          alleged that the organization2took improper actions with reGpect to individuals property.

          A thorough search of all the information provided by the complainant showed no NSF
          connection. We contacted the complainant who did not know of any NSF connection.

          NSF has no apparent jurisdiction with regard to this matter.

          This matter is closed and no-further-action will be taken.




I'
NSF 01G Form 2 (1 1/02)
